RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 21-418
JOSEPH A. KENNEDY,
Petitioner,
v.
BREMERTON SCHOOL DISTRICT,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Brief of Amici Curiae Former Professional Football Players Steve Largent and
Chad Hennings in Support of Petitioner in the foregoing case contains 4,550 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 14, 2021.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

